                      CLOSEOUT FOR CASE MOO030016


On 24 March 2000, three NSF staff members' contacted us to report the subject: the PI
on an NSF proposal^ allegedly misrepresented her role in one publication4listed in the
Biographical Sketch section in the proposal. According to the staff members, the subject
had participated in the preparation of the publication, but had allegedly exaggerated her
role when she listed herself as "editor." None of them considered the matter to be
serious, but they generally agreed that the subject should be cautioned to be more careful
about how she cites this publication in the future.

We determined that the subject oversaw and participated in the development of the
publication, but that another scientist had been the chief editor. We concluded that the
subject did exaggerate her role when she cited herself as "editor," although we noted that
there was no convenient summary term to indicate the subject's role. However, ,we ..
concluded that the exaggeration was not a serious deviation from accepted practice
because she had been involved in the process and made editorial input. We contacted the
subject to discuss our concerns about her citation. We recommended that she be careful
how she cites her role in this and future publications.

This case is closed and no fiuther action will be taken.

cc: Integrity, I%.




                                         Page 1 of 1
